Supreme Court of the United States

BECKER GALLAGHER
Briefs

and

United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition in 20-1452, Rick C. Sasso,
M.D. v. Warsaw Orthopedic, Inc., Medtronic, Inc.,
Medtronic Sofamor Danek, Inc., was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent Next Day and via e-mail service to the following
parties listed below, this 17th day of May, 2021:
George Thomas Patton Jr.
Bose, McKinney & Evans
777 6th Street, N.W.
Suite 520
Washington, DC 20001
(202) 4 70-1944
gpatton@boselaw.com
Counsel for Cross-Petitioner
Paul D. Clement
Counsel of Record
John C. O'Quinn
C. Harker Rhodes IV
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com
john.oquinn@kirkland.com
harker.rhodes@kirkland.com
Counsel for Cross-Respondents

I

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 17, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

AMY TRIPLETI MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has No Expiration
Date. Section 147.03 O.R.C.

